LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 20, 2019

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

NICHOLAS SCHIANO, BARMITZVAHS.COM, INC. AND M&M ENTERTAINMENT,
INC. V. MATT FRIEDMAN AND SCALE MEDIA, INC.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 3,853 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

